CERTIFICATE OF WORD COUNT
NO. TBD
Billy John Bell,
Petitioner(s),
v.
State of Texas,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the BILLY JOHN BELL PETITION
WRIT OF CERTIORARI contains 3489 words, including the parts of the brief that are required or
exempted by Supreme Court Rule 33.1(d).
FOR

I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
November 9, 2020

SCP Tracking: Rodgers-100 North Main Street-Cover White

